ATIRAcredit™ Business Mastercard® Terms and Conditions
Interest Rates and Interest Charges

Prime + margin of 7.99% 13.99%

Annual Percentage Rate
(APR) for Purchases

A variable rate that ranges from
to
when
you open your account based on your creditworthiness. After that, your APR will vary with the
market based on the Prime Rate.

APR for Balance Transfers

Balance Transfer APR is the same as the Purchase APR.

APR for Cash Advances &
Convenience Checks

Prime + margin of 17.99%. This APR will vary with the market based on the Prime Rate.
Prime + margin of 19.99%. This APR will vary with the market based on the Prime Rate.
The Penalty APR will apply to your Account if you:

Penalty APR and When It
Applies

•
•

fail to make any Minimum Payment by the date and time due (late payment); or
make a payment to us that is returned unpaid.

How Long Will the Penalty APR Apply: If an APR is increased for any of these reasons, the
Penalty APR will apply until the closing date of the sixth consecutive billing cycle that you are
current on all payments to your account.

Variable Rate Information

The variable APR you receive is dependent on your credit history. Your Purchase APR may vary
monthly. The Purchase Rate is determined by adding a premium of 7.99% to 13.99% to the
Prime Rate. The Convenience Check and Cash Advance Rate are determined by adding a
premium of 17.99% to the Prime Rate. The Penalty Rate is determined by adding a premium of
19.99% to the Prime Rate.

Grace Period

Your due date will be a minimum of 20 days after the close of each billing cycle. We will not
charge you periodic interest on any portion of new purchases billed to a statement that we
allocate such payment to, so long as your current statement shows that we received payment of
the entire balance for your previous statement by the time the Minimum Payment was due. You
may not be able to avoid interest on new purchases if you have another balance at a higher
interest rate, unless you pay your balance in full each month, because we may allocate
payments to higher rate balances first. We will begin charging interest on balance transfers, cash
advances, and convenience checks on the transaction date.

Minimum Interest Charge

If you are charged periodic interest, the charge will be no less than $0.50.

Fees
Annual Membership Fee

None first year. After that, $39.00.

Transaction Fees
•

Balance Transfer Fee

Either $10.00 or 3% of the amount of each transfer, whichever is greater.

•

Cash Advance Fee

Either $10.00 or 4% of the amount of the cash advance, whichever is greater.

•

Foreign Transaction Fee

3% of each transaction in U.S. Dollars.

Penalty Fees
•

Late Payment

$20.00

•

Overlimit Fee

$20.00

•

Return Payment Fee

$20.00

•

Returned Check Fee

$20.00

How Your Variable Rate is Calculated
We calculate the variable rate by adding a premium to the highest Prime Rate published in the “Money Rates” section of The Wall
Street Journal for the preceding three (3) months and can change up to three days prior to your statement closing date. If the Prime
Rate changes, your new rate will take effect on the then current billing period.
How Your Minimum Payment is Calculated Your minimum payment will be the greater of 2% of your outstanding balance or $40. If
your balance is less than $40, your minimum payment will equal your balance.

How We Will Calculate Your Balance: We use a method called “AVERAGE DAILY BALANCE” (including new transactions).
Prime Rate: Your APR is variable and may increase or decrease monthly. The Purchase APR and Balance Transfer APR are
determined by adding a margin of 7.99% to 13.99% to the Prime Rate. The Cash Advance APR is determined by adding a margin of
17.99% to the Prime Rate. For each billing period, we use the Prime Rate published in The Wall Street Journal three (3) business days
prior to your statement closing date. If The Wall Street Journal does not publish the Prime Rate, we may substitute a similar
published rate. A change in the APR due to a change in the Prime Rate takes effect as the first day of the billing period for which we
calculate the APR. We apply the applicable APR to any existing balances, subject to any promotional rates that may apply. If the
Prime Rate increases, it will increase the APR and interest charges on your Account, and it may increase your monthly payment. Your
APRs may also be subject to applicable state rate caps.
The information about the costs and benefits of the card described in these Terms and Conditions is accurate as of 9/1/2017. This
information may have changed. To find out what may have changed please visit www.ATIRAcredit.com for the latest version or
call 888.4.ATIRA.1 (888.428.4721).
Credit approval required. If this card is approved, your credit limit will be provided to you upon approval depending on your
creditworthiness. The minimum credit limit is $500.
Please allow up to two (2) billing cycles for reward points to post to your account.
TERMS & CONDITIONS
Authorization: When you ("you", "your" means the owner, officer, or partner of the company with the authority to bind the
company to the terms & conditions of this offer and the Business Card Agreement, and who is agreeing to the terms on their own
behalf and that of the company) respond to this credit card offer from TMG Financial Services, Inc. ("TMGFS", “ATIRAcredit”, "we",
or "us"), you agree to the following:
1.

You authorize us to obtain business and consumer credit bureau reports in connection with your request for an account. If
an account is opened, we may obtain credit bureau reports in connection with extensions of credit or the review or
collection of your account. If you ask, we will tell you the name and address of each credit bureau from which we obtained
a report about you.

2.

If an account is opened, you will receive a Welcome Letter, a Business Mastercard Agreement and Disclosure Statement
with your card(s), and these disclosures that make up the entirety of your Business Card Agreement with us. By using the
account or any card, authorizing their use, or making any payment on the account, you agree to the terms of the Business
Card Agreement.

3.

You authorize us to allocate your payments and credits in a way that is most favorable to or convenient for us.

4.

Rates, fees and terms may change: We have the right to change the account terms (including the APRs) in accordance with
your Business Card Agreement.

5.

You also certify you have the authority to permit us to issue your credit card containing the Company name if completed on
the form.

Individual and Company Liability: You understand that by responding to this offer you agree to be personally responsible for
payment of all balances incurred on all cards and accounts issued pursuant to this application now or whenever such additional
accounts may be established in the future, and that the Company is jointly liable for all balances on all accounts in the Company
name. You understand that if you leave the employment of the Company, you will continue to be responsible for the outstanding
balances on the accounts. You must notify us immediately to close the accounts and prevent further usage.
Before we approve you for a credit card, we will review your credit report, the Company's financial information, and the information
you provide with your response to confirm that you meet the criteria for this offer. Based on this review, you may receive a card
with different costs or you may not receive a card. We may request additional information for a revolving credit amount above
$15,000.

If an account is approved, all cardmembers will have access to the approved revolving credit amount disclosed on the Welcome
Letter and any amount over the revolving credit amount that we authorize. If you would like to set spending limits on any
cardmembers, please contact our Cardmember Service Department after the account has been opened. By becoming a Mastercard
Business cardmember, you agree that the card is being used only for business purposes and that the card is being issued to a public
or private company including a sole proprietor or employees or contractors of an organization.
You must be at least 18 years old to qualify.
You authorize us to receive and exchange information about you, including from your employer, your financial institution, credit
bureaus and others for purposes of verifying your identity and the information on this application and determining your eligibility for
credit, renewal of credit, and future extensions of credit. By providing your phone numbers, you agree that TMG Financial Services,
its affiliates and agents, may call you at these numbers. If this is a cell phone number you agree that we may contact you using an
automatic dialer, including pre-recorded messages and/or text messages, even if your cell phone provider may charge you for calls
according to your current plan. Upon your request, we will inform you of the name and address of each consumer reporting agency
from which we obtained a consumer report relating to you.
We reserve the right to change the benefit features associated with your card at any time.
Ohio Residents: The Ohio laws against discrimination require that all creditors make credit equally available to all customers, and
that credit reporting agencies maintain separate histories on each individual upon request. The Ohio Civil Rights Commission
administers compliance with the law.
Replying to this offer: If you omit any information on the form, we may deny your request for an account. You must have a valid
permanent home address, and the Company must be headquartered, within the 50 United States or the District of Columbia. The
information about the costs of the card described in this form is accurate as of 9/1/2017. This information may have changed after
that date. To find out what may have changed, call 1-888-428-4720.
USA Patriot Act: To help the government fight the funding of terrorism and money laundering activities, Federal law requires all
financial institutions to obtain, verify, and record information that identifies each person who opens an account. What this means to
you: When you open an account, we will ask for your name, address, date of birth, and other information that will allow us to
identify you. We may also ask to see your driver's license or other identifying documents.
ATIRAcredit™ Rewards Program: For full Terms and Conditions, visit http://www.atiracredit.com/ATIRAcreditRewards.pdf.
ATIRAcredit makes your privacy a priority; please visit www.ATIRAcredit.com for a copy of our privacy pledge.
The ATIRAcredit™ Card is provided by TMG Financial Services pursuant to a license by Mastercard International Incorporated.
Mastercard, Platinum Mastercard and the Mastercard Brand Mark are registered trademarks of Mastercard International
Incorporated. ©2017, TMG Financial Services, Inc. ATIRA® is a registered service mark and ATIRAcredit™ is a service mark of The
Members Group, LLC.

